Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  MAINE DID NOT ALWAYS CLAIM
       FEDERAL MEDICAID
  REIMBURSEMENT FOR CLINICAL
DIAGNOSTIC LABORATORY SERVICES
      IN ACCORDANCE WITH
         REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       March 2014
                                                      A-01-13-00005
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Maine did not always claim Medicaid payments for clinical diagnostic laboratory services in
 accordance with Federal and State requirements, resulting in overpayments of
 approximately $3.5 million ($2.5 million Federal share) over 4 years.

WHY WE DID THIS REVIEW

Prior Office of Inspector General (OIG) reviews found that some States did not always claim
Federal Medicaid reimbursement for clinical diagnostic laboratory services in accordance with
Federal and State requirements. Specifically, the States submitted claims for Medicaid clinical
diagnostic laboratory services that exceeded the allowed amounts. We conducted this audit to
ensure that the Maine Department of Health and Human Services, Office of MaineCare Services
(State agency), did not submit claims in excess of the amounts allowed by Federal and State
requirements. We selected the State agency in part because we had not previously reviewed its
laboratory claims.

The objective of this review was to determine whether the State agency claimed Federal
Medicaid reimbursement for clinical diagnostic laboratory services in accordance with Federal
and State requirements.

BACKGROUND

Hospital outpatient and independent clinical diagnostic laboratory services provide information
for the diagnosis, prevention, or treatment of disease or for the assessment of a medical
condition. Tests are ordered by a physician or a qualified nonphysician practitioner who is
treating the patient. Medicaid reimbursement for clinical diagnostic laboratory tests may not
exceed the amount set in the Medicare Clinical Laboratory Fee Schedule (Medicare fee
schedule) (the Centers for Medicare & Medicaid Services State Medicaid Manual, § 6300.2).
State regulations further limit Medicaid reimbursement paid to in-State providers to 53 percent
of the limit in the current Medicare fee schedule for Maine in effect at that time (Code of Maine
Rules 10-144-101, chapter II, § 55.07, effective March 29, 2009).

HOW WE CONDUCTED THIS REVIEW

We determined whether the State agency claimed Federal reimbursement in accordance with
Federal and State requirements by reviewing Medicaid hospital outpatient and independent
clinical diagnostic laboratory services that were submitted by providers and claimed by the State
agency on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program. Specifically, we calculated the amount that should have been paid
according to Federal and State requirements and compared it with the amount actually paid. The
State agency claimed $30,366,515 ($21,526,813 Federal share) for Medicaid hospital outpatient
and independent clinical laboratory services provided during calendar years 2007 through 2010.




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                 i
WHAT WE FOUND

The State agency did not always claim Federal Medicaid reimbursement for clinical diagnostic
laboratory services in accordance with Federal and State requirements. Of the 1,151,170
services that we reviewed, the Medicaid payments that the State agency made for 795,812
services did not exceed the amounts allowed by Federal and State requirements. However, for
355,358 services, the State agency paid providers more than they would have been paid under
Medicare or more than the amounts allowed by State regulations. As a result, the Federal
reimbursement that the State agency claimed exceeded the rates allowed by Federal and State
requirements by $3,492,829 ($2,538,406 Federal share).

The Medicaid overpayments occurred because the State agency did not always follow its policies
and procedures to ensure that the amounts claimed for hospital outpatient and independent
clinical laboratory services did not exceed the amounts that would have been paid under the
Medicare program or the amounts allowed by State regulations.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $2,538,406 to the Federal Government and

    •   follow its policies and procedures to ensure that the amounts claimed for hospital
        outpatient and independent clinical laboratory services do not exceed the amounts that
        would be paid under the Medicare program (for out-of-State providers) or the amounts
        allowed by State regulations (for in-State providers).

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency neither agreed nor disagreed with our
findings. Rather, the State agency stated that it will await the final disposition of future
discussions between the Centers for Medicare & Medicaid Services (CMS) and OIG before
returning any funds to CMS. In addition, the State agency stated that it will develop a corrective
action plan to ensure that out-of-State payments for outpatient clinical laboratory tests do not
exceed the amounts paid by Medicare.




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)              ii
                                                     TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................1

           Why We Did This Review ............................................................................................1

           Objective .......................................................................................................................1

           Background ...................................................................................................................1
                 Medicaid Program .............................................................................................1
                 Medicaid Coverage of Clinical Diagnostic Laboratory Services .....................1

           How We Conducted This Review.................................................................................2

FINDINGS ................................................................................................................................2

           Federal and State Requirements....................................................................................3

           Medicaid Payments Exceeded Amounts Allowed by Federal and
                 State Requirements ...........................................................................................3

           Cause of Medicaid Overpayments ................................................................................4

RECOMMENDATIONS ..........................................................................................................4

STATE AGENCY COMMENTS .............................................................................................4

APPENDIXES

           A: Audit Scope and Methodology ...............................................................................6

           B: State Agency Comments .........................................................................................8




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                                                             iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Prior Office of Inspector General (OIG) reviews found that some States did not always claim
Federal Medicaid reimbursement for clinical diagnostic laboratory services in accordance with
Federal and State requirements. 1 Specifically, the States submitted claims for Medicaid clinical
diagnostic laboratory services that exceeded the allowed amounts. We conducted this audit to
ensure that the Maine Department of Health and Human Services, Office of MaineCare Services
(State agency), did not submit claims in excess of the amounts allowed by Federal and State
requirements. We selected the State agency in part because we had not previously reviewed its
laboratory claims.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for clinical diagnostic laboratory services in accordance with Federal and State
requirements.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to certain low-income individuals and
individuals with disabilities (the Social Security Act (the Act), Title XIX). The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Maine, the State agency administers the
Medicaid program.

Medicaid Coverage of Clinical Diagnostic Laboratory Services

Hospital outpatient and independent clinical diagnostic laboratory services provide information
for the diagnosis, prevention, or treatment of disease or for the assessment of a medical
condition. Tests are ordered by a physician or a qualified nonphysician practitioner who is
treating the patient. Clinical laboratory services involve the following types of examination of
materials derived from the human body: biological, microbiological, serological, chemical,
immunohematological, hematological, biophysical, cytological, pathological, or other
examinations of materials.


1
  Massachusetts Generally Implemented Recommendations From Prior Review of Claims for Hospital Outpatient
Clinical Laboratory Services (A-01-12-00005, issued November 30, 2012) and Connecticut Generally Implemented
Recommendations From Prior Review of Medicaid Payments for Clinical Laboratory Services (A-01-12-00014,
issued April 29, 2013).


Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                        1
Providers use CMS’s Health Care Common Procedural Coding System (HCPCS) codes to claim
clinical laboratory services for payment by the State agency. The State agency seeks Federal
reimbursement for amounts paid on behalf of Medicaid beneficiaries. The Federal Government
pays its share of State Medicaid expenditures, including claims for clinical diagnostic laboratory
services, according to a formula established in the Act, section 1905(b). That share is known as
the Federal medical assistance percentage (FMAP). The FMAP in Maine ranged from
63.27 percent to 74.86 percent during our audit period.

HOW WE CONDUCTED THIS REVIEW

Our review covered the $30,366,515 ($21,526,813 Federal share) that the State agency claimed
for Medicaid hospital outpatient and independent clinical laboratory services provided during
calendar years (CYs) 2007 through 2010. We determined whether the State agency claimed
Federal reimbursement in accordance with Federal and State requirements by reviewing
Medicaid hospital outpatient and independent clinical diagnostic laboratory services that were
submitted by providers and claimed by the State agency on Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program. Specifically, we calculated the
amount that should have been paid according to Federal and State requirements and compared it
with the amount that actually was paid.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

The State agency did not always claim Federal Medicaid reimbursement for clinical diagnostic
laboratory services in accordance with Federal and State requirements. Of the 1,151,170
services that we reviewed, the Medicaid payments that the State agency made for 795,812
services did not exceed the amounts allowed by Federal and State requirements. However, for
355,358 services, the State agency paid providers more than they would have been paid under
the Medicare program or more than the amounts allowed by State regulations. As a result, the
Federal reimbursement that the State agency claimed exceeded the rates allowed by Federal and
State requirements by $3,492,829 ($2,538,406 Federal share).

The Medicaid overpayments occurred because the State agency did not always follow its policies
and procedures to ensure that the amounts claimed for hospital outpatient and independent
clinical laboratory services did not exceed the amounts that would have been paid under the
Medicare program or the amounts allowed by State regulations.




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)              2
FEDERAL AND STATE REQUIREMENTS

No Federal financial participation is available for amounts expended for clinical diagnostic
laboratory tests that exceed the amounts recognized under Medicare (the Act, § 1903(i)(7), and
the CMS State Medicaid Manual, § 6300.2). Under Medicare, outpatient clinical laboratory
services are paid on the basis of a fee schedule established by the Secretary of Health and Human
Services (the Act, § 1833(h)(1)(A)).

Clinical laboratory tests are reimbursed on the basis of the Medicare fee schedule published
annually by CMS (CMS’s Medicare Claims Processing Manual, chapter 16, § 20). For each
HCPCS code, Medicare pays the lesser of (1) actual charges, (2) the national limitation amount
on the Medicare fee schedule, or (3) the Medicare fee schedule limit for the State or local
geographic area. 2

The State agency posts the payment rates for hospital outpatient and independent clinical
diagnostic laboratory services online. Prior to March 29, 2009, the rates for services performed
by in-State providers were determined based on the lesser of (1) the Medicare fee schedule limit
for Maine in effect at that time or (2) the provider's usual and customary charge. Effective
March 29, 2009, the rates for services performed by in-State providers are determined based on
the lesser of (1) 53 percent of the Medicare fee schedule limit for Maine in effect at that time or
(2) the provider’s usual and customary charge (Code of Maine Rules 10-144-101, chapter II,
§ 55.07). 3

MEDICAID PAYMENTS EXCEEDED AMOUNTS ALLOWED BY
FEDERAL AND STATE REQUIREMENTS

The State agency did not always claim Federal Medicaid reimbursement for hospital outpatient
and independent clinical diagnostic laboratory services in accordance with Federal and State
requirements. Of the 1,151,170 services that we reviewed, the Medicaid payments that the State
agency made for 795,812 services did not exceed the amounts allowed by Federal and State
requirements. However, for 355,358 services, the State agency paid providers more than would
have been paid under the Medicare program or more than the amounts allowed by State
regulations.

For example, during May 2009, an in-State provider billed $6.20 to the State agency for one unit
of service for HCPCS code 86901 (blood typing; Rh (D)). The State agency paid $6.20 to the
provider and claimed the same amount for Federal Medicaid reimbursement. On the Medicare
fee schedule for 2009, both the national limit and the State limit for Maine were $4.35 per unit.

2
 CMS establishes a national payment limit for each HCPCS code on the Medicare fee schedule. CMS also
establishes a State limit on the Medicare fee schedule, which varies by State and may be less than or equal to the
national limit.
3
  Code of Maine Rules 10-144-101, chapter II, § 55.07 is not applicable to out-of-State providers. Therefore, out-of-
State providers were not subject to the Code of Maine Rules amendment effective March 29, 2009, which further
limited the rates for services to 53 percent of the Medicare fee schedule limit for Maine. However, out-of-State
providers are subject to Federal requirements, which limit the rate to the amount on the Medicare fee schedule.



Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                                  3
Because State regulations limit Medicaid reimbursement to in-State providers to 53 percent of
the State limit in the current Medicare fee schedule, we determined that the allowable payment
was $2.31 ($4.35 multiplied by 53 percent) for one unit. As a result, we identified a Medicaid
overpayment of $3.89 for this claim ($6.20 minus $2.31).

In total, the Federal reimbursement claimed by the State agency exceeded the rates allowed by
Federal and State requirements by $3,492,829 ($2,538,406 Federal share). The Medicaid
overpayments that we identified for each CY are as follows:

                         Medicaid Overpayments by Calendar Year
                                                  Services Exceeding Federal or
                         Claimed Services                  State Limits
                                                                   Unallowable
                   Number of      Paid Amount     Number of      Amount (Federal
        CY         Line Items   (Federal Share)   Line Items         Share)
        2007            255,226            $3,184,239              39,520              $214,627
        2008            266,363              4,321,520             35,318               289,315
        2009            301,183              6,240,213            127,381               928,801
        2010            328,398              7,780,841            153,139              1,105,663
        Total         1,151,170           $21,526,813             355,358             $2,538,406

CAUSE OF MEDICAID OVERPAYMENTS

The Medicaid overpayments occurred because the State agency did not always follow its policies
and procedures to ensure that the amounts claimed for hospital outpatient and independent
clinical laboratory services did not exceed the amounts that would have been paid under the
Medicare program or the amounts allowed by State regulations.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,538,406 to the Federal Government and

    •   follow its policies and procedures to ensure that the amounts claimed for hospital
        outpatient and independent clinical laboratory services do not exceed the amounts that
        would be paid under the Medicare program (for out-of-State providers) or the amounts
        allowed by State regulations (for in-State providers).

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency neither agreed nor disagreed with our
findings. Rather, the State agency stated that it will await the final disposition of future
discussions between CMS and OIG before returning any funds to CMS. In addition, the State



Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                4
agency stated that it will develop a corrective action plan to ensure that out-of-State payments for
outpatient clinical laboratory tests do not exceed the amounts paid by Medicare. The State
agency’s comments are included in their entirety as Appendix B.




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed claims for Medicaid hospital outpatient and independent clinical diagnostic
laboratory services that providers submitted to the State agency and that the State agency
claimed for Federal reimbursement on Form CMS-64. The State agency claimed $30,366,515
($21,526,813 Federal share) for Medicaid hospital outpatient and independent clinical laboratory
services provided during CYs 2007 through 2010. 4

Our objective did not require an understanding or assessment of the complete internal control
structure at the State agency. Rather, we limited our review to those controls that were
significant to the objective of our audit.

We performed our fieldwork at the State agency in Augusta, Maine, from May through
September 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •   reviewed applicable Federal and State laws, regulations, and guidance and the CMS-
        approved State plan;

    •   interviewed officials from CMS and the State agency;

    •   obtained a computer-generated file from the Maine Medicaid Management Information
        System (MMIS) containing all claims for Medicaid hospital outpatient and independent
        clinical laboratory services that the State agency submitted to CMS with HCPCS codes
        on the Medicare fee schedule and service dates during the period January 1, 2007,
        through December 31, 2010;

    •   evaluated the file to identify 1,151,170 Medicaid hospital outpatient and independent
        clinical laboratory services totaling $30,366,515 ($21,526,813 Federal share);

    •   reconciled the clinical laboratory services that the State agency claimed during CYs 2007
        through 2010 on Form CMS-64 to the MMIS data; and

    •   determined the amount that the State agency was reimbursed in excess of the amounts
        allowed by State regulations and the amounts that would be paid under the Medicare
        program by:




4
  We limited our review to HCPCS codes listed on the Medicare fee schedules for each CY. Our review did not
include HCPCS codes without CMS-established payment limits.


Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)                           6
            o computing what the State payment limit should be for each service provided by
              all providers prior to March 29, 2009, and out-of-State providers on or after
              March 29, 2009, by multiplying the Medicare fee schedule rate by the number of
              units billed, per HCPCS code;

            o computing what the State payment limit should be for each service provided by
              in-State providers on or after March 29, 2009, by multiplying 53 percent of the
              Medicare fee schedule rate by the number of units billed, per HCPCS code;

            o computing what the Medicare payment limit should be for each service by
              multiplying the Medicare fee schedule rate by the number of units billed, per
              HCPCS code;

            o calculating the difference between the Medicaid amount claimed (paid amount)
              and the lower of the provider’s actual charge and the State and Medicare payment
              limit for each service; and

            o totaling the differences.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A-01-13-00005)             7
                               APPENDIX B: STATE AGENCY COMMENTS 

                                                                                   Department of Health and Human Services
                                                                                                        Commissioner's Office
                                                                                                                221 State Street
                                                                                                        11 State H ouse Station
                                                                                                   Augusta, Maine 04333-0011
                                                                                       Tel.: (207) 287-3707; Fax (207) 287-3005
Paul R. LePage, Governor    Mary C. Mayhew, Commissioner                                   TTY Users: Dial711 (Maine Relay)



                                                           January 7, 2014



        David Lamir, Regional Inspector General for Audit Services
        DHHS --Office oflnspector General
        Office of Audit Services, Region 1
        JFK Federal Building 

        15 New Sudbury Street, Room 2425 

        Boston, Massachusetts 02203

                     Re: Maine Did Not Always Claim Federal Medicaid Reimbursement for Clinical 

                       Diagnostic Laboratory Services In Accordance With Requirements. Report 

                                              Number A-01-13-00005. 


        Dear Mr. Lamir:

               The Department of Health and Human Services (DHHS) appreciates the 

        opportunity to respond to the above mentioned draft audit report. We offer the following 

        comments in relation to the recommendations on Page·4 of this report. 


               For your convenience, we include the summary finding and recommendation 

        followed by our response. The respdtise includes the State's proposed corrective action 

        plan which we believe will bring the State into compliance with Federal requirements. 


                   Finding:
                   The State agency did not always claim Federal Medicaid reimbursement for
                   clinical diagnostic laboratory services in accordance with Federal and State
                   requirements. Of the 1, 151,170 services that we reviewed, the Medicaid
                   payments that the State agency made for 795,812 services did not exceed the
                   amounts allowed by Federal and State requirements. However, for 355,358
                   services, the State agency paid providers more than they would have been paid
                   under the Medicare program or more than the amounts allowed by State
                   regulations. As a result, the Federal reimbursement that the State agency claimed
                   exceeded the rates allowed by Federal and State requirements by $3,492,829
                   ($2,538,406 Federal share).

                   The Medicaid overpayments occurred because the State agency did not always
                   follow its policies and procedures to ensure that the amounts claimed for hospital
                   outpatient and independent clinical laboratory services did not exceed the
                   amounts that would have been paid under the Medicare program or the amounts
                   allowed by State regulations.


        Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A -01-13-00005)                         8
Page Two

         Recommendation:
         We recommend that the State agency:
            • 	 refund $2,538,406 to the Federal Government and
            • 	 follow its policies and procedures to ensure that the amounts claimed for
                hospital outpatient and independent clinical laboratory services do not
                exceed the amounts that would be paid under the Medicare program (for
                out-of-State providers) or the amounts allowed by State regulations (for
                in-State providers).

        Response:
        DHHS will await the final disposition of future discussions between CMS and the
        Office oflnspector General, referred to in Rudolph Naples email ofNovember 26,
        2013, concerning findings in their respective audit reports before returning any
        funds to CMS.

        This review was conducted on claims paid through the MeCMS system. The
        MIHMS system uses a variety of processes, payment terms and fee schedules to
        determine appropriate allowed amounts, as well as edits to ensure accurate
        payments.

        Currently, instate payments for outpatient clinical laboratory tests do not exceed
        amounts paid by Medicare. DHHS will work with its fiscal agent, Molina, to
        develop a corrective action plan to ensure that out of state payments for outpatient
        clinical laboratory tests do not exceed amounts paid by Medicare.

        We appreciate the time spent in Maine by OIG's staff reviewing Maine's
compliance with the requirements for clinical diagnostic laboratory services. We believe
this effort will enable us to perform this function more accurately in the future.




                                               7~~ Mary C. Mayhew
                                                   Commissioner

MCM/klv




Maine Medicaid Payments for Clinical Diagnostic Laboratory Services (A -01-13-00005)           9
